Record Press Inc., 229 West 36th Street, New York, N.Y. taat8•
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE OF NEW YORK.

SS:

COUNTY OF NEW YORK

85314

AFFIDAVIT OF SERVICE

Haward Daniels being duly sworn. deposes and says that deponent is not party ta the action. and is aver 18 years

age.

That an the 30th day

November 2020 deponent served 3 copies the within
BRIEF IN DPPDSITIDN
upon the attorneys at the addresses below. and by the fallowing method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Lisa Schiavo Blatt
Williams HConnally LLP
72512th Street NW
Washington. DC 20005
202-434-5050

Attorneys for Petitioner

I. Haward Daniels. declare under penalty

perjury under the laws the United States America that the foregoing is true and
correct executed an November 30. 2020. pursuant ta Supreme Court Rule 2S.5(c). All parties required ta be served. have been
served.
Haward Daniels

Sworn to me this

November 30. 2020
Jasmine Williams
Notary Public. State New Yark
Na. DIWl638784S
llualified in llueens County
Commission Expires September 16. 2023

~ .NotarvPu
( ;bIi _
~
c

Case Name: Mahanoy Schaal District v B.L.
Docket/Case No. 20-255

